Department of Health and Human Services




CHILD SUPPORT AND THE MILITARY




           JUNE 1993   OEI-07-90-02250
              EXECUTIVE                          SUMMARY


PURPOSE

To determine what barriers exist in the collection of child support payments from
absent parents in the U.S. military service.

BACKGROUND

A 1989 Management Advisory Report, A-12-89-00154, issued by the Office of Audit
Services (OAS) identified 42,000 military personnel in arrears on their child support
payments. These payments totalled over $176 million. The OAS identified these
military cases through a match of the 1989 Office of Child Support Enforcement
(OCSE) tax intercept file and military personnel data. About 64 percent of the
payments were related to support for Aid to Families with Dependent Children
(AFDC).

Persons serving in the U.S. military semices are expected to pay their financial
obligations in a timely manner, including the support of dependent children.
The U.S. Department of Army regulations, 32 CFR Part 584.2, requires soldiers to
provide financial support to family members, obey court orders, and comply with all
court imposed obligations. More specifically, Army Regulation 608-99, Chapter 2-la,
“requires soldiers to provide financial support to family members and to obey court
orders on child custody.” The Navy, Air Force and Marines have similar regulations
which also require their members to pay their financial obligations, including
dependent support.

We selected eight States and 360 cases for inclusion in this inspection, using a two-
stage stratified cluster sample. States were then selected in the first stage using a
stratified random sample. Forty-five cases were selected in each State with random
sampling for a total of 360 cases.

In addition, we interviewed Child Support Enforcement (cSE) caseworkers          in two
local CSE offices and at a military installation in each of the eight States.   We also
interviewed legal staff in each of the four Defense Finance and Accounting       Service
Centers. Our preliminary findings were discussed with the Department of         Defense
and their comments are incorporated in the report.

FINDINGS

States do not collect child support payrnen~ in more than half of the sample military
cases. Projected national savings to the AFDC and Medicaid programs, if courts
orders for child support were established and/or enforced in these cases, totals $54.1
million.



                                             1
Locating     absent parents is the greatest barrier.        The transient nature of military
assignments and the fact that military personnel are often stationed at installations for
short periods of time often complicates the location of absent parents. That, coupled
with difficulties in obtaining Social Security numbers for absent parents, often makes
locating absent parents in the military virtually impossible.

The CSE stafl have not been properly trained to handle miiltary cases. The CSE staff
are unfamiliar with military policies and procedures which can become “red tape”. A
handbook issued by the Administration for Children and Families (ACF) entitled
“Child Support Enforcement in the Military” was effective but not widely distributed to
CSE caseworkers and staff.

Mi.litaq Finance Centem identi~ reasons for delaying the processing of wage withholding
oniem The Defense Finance and Accounting personnel interviewed indicated that the
delay in processing wage withholding orders is often the result of handling many
orders more than once, and that many orders are returned to CSE agencies because
they lack the proper documents and/or information required for processing. The lack
of standardized forms for submission of wage withholding orders also delays processing
which is consistent with a finding in a previous Office of Inspector General (OIG)
report.

RECOMMENDATIONS

1.         The ACF, Office of Child Support Enforcement               should:

           a.	    provide technical support to State CSE offices to improve Social Security
                  number identification;

           b.	    evaluate the usefulness of information available through the Federal
                  Parent Locator Service, and provide necessary assistance to local CSE
                  offices searching for military absent parent Social Security numbers;

           c.	    continue to promote the “Child Support Enforcement               in the Military”
                  handbook; and

           d.	     establish and require the use of a standard form and a checklist for
                   submission of wage withholding requests to the Defense Finance and
                   Accounting Service Centers.

 2.	       The ACF and the Social Security Administration (SSA) should collaborate to
           develop a better mechanism to assist CSE staff in obtaining Social Security
           numbers for absent parents. In doing so, it is essential that safeguards remain
           in place to protect individual privacy and the integrity of the Social Security
           system.




                                                       ii
We received comments on the draft report from ACF, SS~ and the Assistant
Secretary for Planning and Evaluation. They concurred with our recommendations.
ACF identified several actions that they have taken. However, we feel continued
actions on each of our recommendations are warranted. The full text of their
comments are included in Appendix D.




                                         ...
                                         111
                   TABLE                   OF CONTENTS

                                                                                                                                           Page

EXECUTIVE        SUMMARY          ..........          .   .   .   .   .   .   .   .   .   .   ..”.        ”o”””o”oo         Q”””    ”o   o””
                                                                                                                                               i



INTRODUCTION           . . . . . . . . . . . . . . . . . . . . ...””””””.”                                  0“”0””.c”o””””..”                  1



FINDINGS     ...............................                                              o.-o””c””.-”””0””””””””
                                                                                                                                               3




   Uncollected    supportpayments.            . . . . . . . . . . . . . . . . . . . ...”.                              . .””””””””””           3



                                     support inmilita~cases                                          . . . . . . . . . . . . . . . . . . . . . 5


   CSE staff training      .....    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          7


   Military finance centers        . . . . . . . . . . . . . . . . . . . . . ...”....                                 . . . . . . . . . . . . . 7



RECOMMENDATIONS                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...                             9





APPENDIXES

   A.      Projected Case Characteristics                     . . . . . . . . . . . . . . . . . . . . . . . . ..”..A-l

   B.      State Level Data        . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”..”...                                  “...B-l

   c.      Projected Program Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”C-l

   D.      Agency Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .*.-D-l
                         INTRODUCTION


PURPOSE

The purpose of this study is to determine what barriers exist in the collection of child
support payments from absent parents in the U.S. military service.

BACKGROUND

A 1989 Management Advisory Report, A-12-89-00154, issued by the Office of Audit
Services (OAS) identified 42,000 military personnel in arrears on their child support
payments. These payments totalled over $176 million. These military cases were
identified through a match of the 1989 Office of Child Support Enforcement (OCSE)
tax intercept file and military personnel data. About 64 percent of the payments were
related to support for Aid to Families with Dependent Children (AFDC).

Persons serving in the U.S. military services are expected to pay their financial
obligations in a timely manner, including the support of dependent children.
The U.S. Department of Army regulations, 32 CFR Part 584,2, requires soldiers to
provide financial support to family members, obey court orders, and comply with all
court imposed obligations. More specifically, Army Regulation 608-99, Chapter 2-la,
“requires soldiers to provide financial support to family members and to obey court
orders on child custody.” The Navy, Air Force and Marines have similar regulations
which also require their members to pay their financial obligations, including
dependent support.

METHODOLOGY

We selected eight States and 360 cases for inclusion in this inspection, using a two-
stage stratified cluster sample. States were then selected in the first stage using a
stratified random sample. Forty-five cases were selected in each State with random
sampling for a total of 360 cases.

The sample frame for the first stage consisted of the 50 States. These States were
rank ordered and categorized into quartiles based on the 1990 average annual AFDC
caseload information listed on the OCSE-56 form. Three States were randomly
selected from each of the four strata - two sample States plus one alternate. Three of
the initially selected sample States were unable to provide us with a list of AFDC
cases which included absent parent information. We replaced these three States with
the selected alternate States for the respective quartile. The eight States selected for
inclusion in this study were Arkansas, Georgia, Illinois, Massachusetts, New Jersey,
Nevada, Oklahoma and South Dakota.

Using the lists provided by the State Child Support Enforcement (CSE) agencies, we
identified the AFDC child support cases in which a branch of military service was


                                            1
listed as the absent parent’s place of employment. Then we randomly selected 45

cases from the military cases identified in each State, for a total of 360 cases. We

reviewed 275 of these cases, We did not review the other 85 cases based on our

determinations that the absent parents were not in the military, had been discharged

from military service, paternity blood tests were negative, or the AFDC portion of the

case had been closed.


Through our review of the sample AFDC case files, we obtained the information

necessary to determine if the absent parents had been located, if paternity had been

established, if court orders had been issued, and whether or not child support

payments were being collected. We were also able to determine the extent of contacts

between CSE staff and military personnel, and the success of the contacts.


In addition to our review of the sample cases, we interviewed CSE caseworkers and

military staff in each of the selected States, and each of the Defense Finance and

Accounting Service Centers. We interviewed CSE caseworkers in two local CSE

offices in each of the eight States. One CSE office in each State was located within 50

miles of a military installation, and the other located more than 50 miles from any

military installation.


We interviewed military personnel at one military installation in each of the sample

States. The selection of CSE offices and military installations to be included in our

sample was conducted with the assistance of both State CSE and Department of

Defense (DOD) personnel.         In total, four Army, three Air Force, and one Naval

installation were included in the sample. The militaxy personnel interviewed varied

from installation to installation, and included staff from the Inspector General’s office,

the Family Support Center, Personnel, Payroll, Accounting and Finance, Legal

Assistance, and Chaplains. We also conducted interviews with legal staff in each of

the four Defense Finance and Accounting Service Centers.


Our preliminary findings were discussed with DOD and they provided comments,

advice, and input regarding sampling, design, and issues which were incorporated into

the report.





                                             2

                                          FINDINGS


I.	   States & not collect chiiif support payments       in more than hay of the sample
      military cases.

      No child support payments are being collected in 143 of the 275 sample cases
      reviewed. Based on a weighted distribution, these cases account for 51 percent
      of the 360 included in our sample. Child support orders had been established
      but no current payments were being made in 45 of the cases (12.7 weighted
      percentage), causing arrearages to build. NO support orders had been
      established in 98 other cases (37.8 weighted percentage), and therefore no child
      support payments were being made. The chart below shows the weighted
      distribution of the 360 sample cases. (See Appendix A for more details.)


                              No Child Support Collected
                          (51 Percent - Weighted Distribution of 360 Cases)




                     �   u. Sqpxlcdleci
                     �   P13ym*ntscumnt




      Projected national savings to the AFDC and Medicaid programs, if court orders
      for child support were established and/or enforced in these cases, total $54.1
      million. (See Appendix C for more details.)

      No current child support pawn ents were being made in 45 of the sample cases
      where court orders for suPPort existed.

      The 45 sample cases had been open from 7 to 256 months, averaging 51.7
      months. The recorded number of months since the absent parent had made
      court ordered child support ranged from 1 to 43 months, averaging 12 months.
      The average recorded arrearage for these cases was $4,590. Recorded
      arrearages totalled $179,030. Projected nationally, the number of cases where
      no current child support payments were being made totals 5,114. Savings to



                                                  3

the AFDC program, if existing court orders for child support were enforced in

these 45 cases, projects to $15.5 million annually.


0fthe45    sample cases inwhich absent parents were delinquent in their court

ordered child support, only 6 had orders containing immediate wage

withholding. The absence of immediate wage withholding makes the collection

of delinquent payments difficult. Because immediate wage withholding was not

included in these support orders, the CSE agency must encourage absent

parents to establish voluntary allotments, process garnishments or serve them

with delinquency notices to establish involuntary allotments. Voluntary

allotments must be established by the absent parent and can also be canceled

by the absent parent at any time. Involuntary allotments require delinquencies

of more than 2 months and are not honored by the military unless the order

specifies a monthly amount to be applied to the arrearage.


No court order for child support had been established in 98 of the sample

cases

—.


Of the 98 sample cases in which no support orders had been established, CSE

staff had been unable to locate the absent parent in 47 cases. In the other 51

cases, the absent parents had been located but no court order established for a

variety of reasons, including the fact that the absent parents were out of the

country or on a ship, paternity blood tests were pending, or CSE staff made nO

militaly contacts. The chart below provides more detailed information

regarding these cases.


                            ~d support    (%XS  in which

                        No Support Order had been Established

                                                  Absent Parent   Absent Parent
          case status                             Not Located       Located

No absent parent Social SecurityNumber
                 37
CSE staff made no militarycontacts
                                    12
Absent parent abroad or on a ship
                                     11
Paternhy blood tests were pending
                                      7
No activityon case since absent parent located
                         6
MilitaryUncooperative (Due to War time

          restrictions of Desert Storm)                 4
Custodial parent/client uncooperative                                  3
CSE contacts current                                    2              3
CSE made inappropriate contacts                         2              3
Insufficient information to determine status                           3
Absent parent was uncooperative                                        1
CSE awaiting military response                                         1
Absent parent discharged by time of contact                            1
Militaty had no record of absent parent                                —

 Totals                                                                51




                                           4

     Ontheaverage     these cases had been open 27months, over 2years. The actual
     time they had been open ranged from 3t0145 months. Projected nationally,
     these cases total 15,222. The projected annual savings tothe AFDC program is
     $22,246,649 if court orders for child support were established and enforced in
     these cases.

     Medical insurance is available to cover demmdents currentlv receivirw medical
     assistance throu ti the Medicaid Dromun.

     Medical insurance is available to all military personnel and their dependents.
     In addition to AFDC program savings, the establishment and enforcement of
     medical support obligations for the projected number of cases in which no
     court orders had been established would save the Medicaid program
     $12,285,523 annually. We calculated this savings amount by applying the
     average of $807.09 in medical assistance provided to AFDC children by the
     Medicaid program to the projected number of these cases, and multiplying it by
     12 months. We used the Health Care Financing Administration Form 2080 to
     determine the average monthly amount. We then applied the $807 to the
     98 cases in which no court orders for child support had been established.

     The Medicaid program would save an additional $4,127,458 annually if court
     orders for medical support were enforced in the projected number of cases
     where court orders already exist. The combined Medicaid program savings for
     both types of cases totals $16,412,981 annually.

     We recognize the Federal government’s liability in the Civilian Health and
     Medical Program of the Uniformed Services (CHAMPUS) and Medicaid and
     that obtaining health care coverage for military personnel dependents through
     CHAMPUS would not necessarily lead to a reduction in overall Federal health
     care expenditures.

2.   Locating   absent parenti   is the greatest barrier.

     The CSE staff were unable to locate the absent parents in 47 of the sample
     cases reviewed, as shown in the chart on page 4. These 47 cases account for
     48 percent of the 98 cases in which no support order had been established. We
     estimate that out of the population studied 23.5 percent of the absent parents
     would be difficult to locate.

     The transient nature of military assignments and the fact that military personnel
     are often stationed at installations for short periods of time often complicates
     the location of absent parents. The CSE staff in 13 of the 16 CSE offices
     visited stated they had encountered problems in locating absent parents in the
     military. The staff in 6 of the 13 offices named location of the absent parents
     as “the greatest barrier” to child support enforcement and collection in military
     cases.


                                               5

As shown in the chart on page 4, cases in which the absent parents’ Social

Security numbers are unknown account for 38 percent (37 of 98) of the cases in

which no court orders have been established. Since the milita~ uses Social

Security numbers to identi& military personnel, they are imperative in the

identification and location of absent parents in the military, as well as in

processing wage withholdings for court ordered support. Without a Social

Security number, locating an absent parent in the military is virtually

impossible.


The CSE staff we interviewed indicated few resources are available for

obtaining unknown Social Security numbers. They have been directed to use

the Federal Parent Locator Service (FPLS) to search for unknown absent

parent Social Security numbers. Likewise, Social Securi~ Administration staff

have been directed to refer CSE staff searching for absent parent Social

Security numbers to the FPLS, except in emergency situations.


However, the CSE staff interviewed indicated that since little absent parent

information is available to them in many of these cases, they often consider the

FPLS an unproductive source for obtaining a Social Security number. To

obtain a Social Security number through the FPLS, the CSE agency must

accurately complete at least three of a number of specified data fields. These

fields include the absent parent’s city of birth, State or country of birth, first

name, middle initial, last name, date of birth, sex, mother’s first name, mother’s

middle initial, or mother’s maiden name. The information included in the

completed fields must be letter perfect to match with Social Security

Administration information available through the FPLS. Staff in one CSE

office said they had “never gotten a Social Security number through the FPLS.”

Others indicated that obtaining a Social Security number through the FPLS is

very unlikely.


Additionally, CSE staff are often unfamiliar with other locate sources available

to them if the Social Security number is known. One such source is the

Worldwide Military Locator Services (wMLS). Each branch of military service

has established a WMLS to provide military addresses for military personnel.


The WMLS information is provided to State CSE agencies at no charge.

However, CSE staff in four of the eight offices visited said they seldom

contacted a WMLS, and one said they had never contacted a WMLS. In the

45 cases where CSE staff had contacted a WMLS for locator information, the

absent parents’ military addresses were provided in all but four instances. In

three of these four cases, the military refused to provide the information

requested based on the privacy required by Operation Desert Storm. In the

other case, the military refused to provide the information requested by the

CSE agency, stating that the “records requested are protected from disclosure

under the privacy act.”




                                      6

      hothermilita~       locator source available to CSEstaff is base locators. Most
      military installations have a base locator, who can provide the ranks and
      military addresses of military personnel assigned to that installation. A base
      locator can also provide CSE staff with the next duty station, in the event that
      the person in question has been transferred. Even though CSE staff in 11 of
      the 16 offices visited said they sometimes or almost always used base locators,
      staff in 3 offices said they seldom or never contacted base locators.

      Even though base locators often serve as an excellent source of locating absent
      parents, CSE staff should be cautioned in their contacts with them. Military
      personnel at seven of the eight installations visited indicated they do not
      forward requests for the location of absent parents to the WMLS in instances
      where he/she is not, or has not recently been, stationed at their facility.
      Therefore, CSE staff should proceed with contacts to the WMLS if contacts
      with a base locator are unsuccessful. As with the use of the WMLS, base
      locators also require the absent parent’s Social Security number.

3.    The CSE stafi have not been properly trained to handle milita~   cases.

      The CSE staff have not been properly trained to handle military cases. They

      are unfamiliar with military policies and procedures which can become “red

      tape” when not understood. The staff interviewed expressed concern with the

      “layers” they have to go through in obtaining information about absent parents

      in the military. One person interviewed said they “may write off military cases

      because it is so hard to get the absent parents served.” Others said they “have

      limited information regarding the military and need training,” and that they

      “need training sessions with military personnel who have direct knowledge of

      how the system works.”


      The handbook issued by the ACF, Office of Child Support Enforcement,

      entitled “Child Support Enforcement in the Military” was effective, but not

      widely available. The Office of Child Support Enforcement issued the

      handbook in June of 1991 to states and local child support enforcement offices,

      but only 8 of the 16 local CSE offices we visited had a copy of the handbook at

      the time of our interviews, over 6 months later. In two of these eight offices

      the handbook was available in the office, but it had not been distributed to the

      staff. In these two instances, only one person on the CSE staff had seen a copy

      of the handbook. The CSE staff that had copies of the handbook spoke highly

      of it and said they found it helpful.


4.	   Militay Finance Centen identi~     reasom for a!daying the proc&g         of wage
      withholding ordem

      The CSE staff inteniewed indicated that processing wage withholding in
      military cases takes longer than non-military cases. They said military wage



                                            7

      withholdings take from 2 to 4 weeks longer than civilian cases, and that it is
      2 to 3 months before they see any payments.

      The Defense Finance and Accounting personnel interviewed indicated the delay
      in processing CSE wage withholdings is often the result of the office handling
      many wage withholding orders more than once. They said that many wage
      withholding orders are returned to CSE agencies because they lack the proper
      documents and/or information required for processing. Among the reasons
      listed for returning wage withholding orders to CSE agencies were the lack ofi

               -   a certified copy of the support order;

               -   a certified copy of the arrearage support order;

               -   the absent parent’s full name and Social Security number;

               -   the full name and address to whom payment should be made; or

               -   legible copies of documents.


       The Defense Finance and Accounting personnel also indicated that the lack of
       standard forms for the submission of withholding orders delays the processing
       of wage withholding orders, which in turn delays payment. The wage
       withholding forms they receive vary by State, and many times from one
       jurisdiction to another within a State. They indicated that standardization of
       wage withholding documents would speed their document review time, leave
       less room for errors, and could serve as a checklist for CSE staff to use in
       preparing wage withholding packages. This finding is consistent with a previous
        Office of Inspector General (OIG) report which found that formats and
        language in court order forms are not standardized among State CSE agencies.
        The report recommended requiring all jurisdictions to use standardized forms
        when issuing legal processes for child support to employers.1




        1
           “An Employer Perspective Fragmentation of State Practices Impair Ability of Employers to
Effectively Implement Wage Withholding Process,” A-12-91-00016.


                                                  8
                  RECOMMENDATIONS


1.    The ACF, Office of Child Support Enforcement     should:

      a.	    provide technical support to State CSE offices to improve Social Security
             number identification;

      b.	    evaluate the usefulness of information available through the Federal
             Parent Locator Service, and provide necessary assistance to local CSE
             offices searching for military absent parent Social Security numbers;

      c.	    continue to promote the “Child Support Enforcement     in the Military”
             handbook; and

      d.	    establish and require the use of a standard form and a checklist for
             submission of wage withholding requests to the Defense Finance and
             Accounting Service Centers.

2.	   The ACF and the Social Security Administration should collaborate to develop
      a better mechanism to assist CSE staff in obtaining Social Security numbers for
      absent parents. In doing so, it is essential that safeguards remain in place to
      protect individual privacy and the integrity of the Social Security system.


AGENCY COMMENTS          AND OIG RESPONSE

We received comments on our draft report from ACF, the Assistant Secretary for
Planning and Evaluation (ASPE), and SSA. The full text of their comments are
included in Appendix D.

The ACF concurred with our recommendations, agreeing that processes for collecting
child support payments from absent parents in the military need to be improved,
particularly in locating the absent parents. They noted several past and future
initiatives to enhance efforts to locate and establish support requirements for absent
parents in the milita~. However, we believe continued actions on each of our
recommendations are warranted.

The ACF suggested that we incorporate data collection instruments into the report.
For reasons of efficiency and clarity, we generally do not do this. However, we are
more than happy to provide a copy of the instruments to ACF.

The ASPE agrees that OCSE and child support enforcement agencies could undertake
additional administrative actions to improve establishing and enforcing child support in
cases where the absent parent is in the military.


                                           9
However, ASPE raised several points.


The ASPE agrees that military-provided insurance could potentially reduce Medicaid

costs but pointed out that would not reduce Federal health care expenditures. The

medical bills would be paid by CHAMPUS, the Federal program which pays for health

care of military personnel and their dependents. We agree and have made this point

on page 5 of our report.


The ASPE mentions that AFDC (and Medicaid) program savings are computed as if

all of the absent parents could be located, so the potential program savings should

reflect a more realistic, less than 100 percent, locate rate. We agree that our

estimates are premised on the 100 percent locate rate and that this is not likely to be

achieved, However, we believe that this should be the goal and that a locate rate

approaching 100 percent is feasible. Furthermore, we have no way to accurately

predict any other rate.


The ASPE feels that some of the problems related to wage-withholding stem from

inconsistencies between the Federal law permitting garnishment in the military (passed

in 1982) and the general child support wage withholding statutes (passed in 1984 and

1988) and that it may be impossible to eliminate confusion between military personnel

and CSE until the 1982 law is amended and/or military regulations are brought into

conformance with subsequent legislation. However, we did not encounter this

problem in our study.


Regarding developing a better mechanism for obtaining Social Security numbers,

ASPE indicated that safeguards have to remain in place to protect individual privacy

and the integrity of the Social Security system. We agree and have included such

references in the report.


The SSA agreed that it should collaborate with ACF/OCSE to develop a better

mechanism to obtain Social Security numbers for absent parents.


The SSA also raised several questions regarding our statistical calculations. We

selected our sample using stratified two-stage cluster design. The data from the eight

States were assigned weights appropriate for the design.


The SSA is correct that States having a large number of child support cases in which a

military branch was listed as the absent parent’s place of employment had a higher

percentage of cases where no child support is being collected than the small

enrollment States. We include State level data in Appendix B. SSA also pointed out

a discrepancy in the precision level of one item on our table of projected case

characteristics. We made the corrections.





                                            10

                            APPENDIX                         A


                      Projected Case Characteristics

Distribution with resmect
                     .    to whether child support payments were delinquent.
                                               -1-.                        .




                             Delinquent Cases          Non-Delinquent   Dropped out of
                                                       Cases            the Sample
 Estimate                    12.7%                     59%               28.3%
 9070 Confidence Interval    9.770-15.7%               54%-64%           23.3V0-33.3%
 Relative Precision          23.6%                     8.3%              17.770

Distribution with respect
                     .    to whether or not a support
                                                .-    order was established.
                             No Support                Support Order     Dropped Out of
                             Order Established         Established       the Sample
 Estimate                    37.8%                     33.970            28.3Y0
 90% Confidence Interval     239?0-52.6T0              16.5% -51.39Z0    23.3% -33.3?Z0
 Relative Precision         I 39%                     I 51.3%           I 17.7%           II
Distribution with respect to whether or not the absent parent could be located.

                             Unable to Locate          Located           Dropped Out of
                                                                         the Sample
 Estimate                    23.5%                     48.2%             28.39Z0
 90% Confidence Interval     20.5%-26.5%               38.7%-57.7%       23.3%-33.3%
 Relative Precision          12.8%                     19.7%             17,7%

Distribution with respect to whether or not the case was a paternity case.

                             Paternity Case	           Non-Paternity     Dropped out of
                                                       Case              the Sample
 Estimate                    55.2%                     16.59Z0           28.3%
 9090 Confidence Interval    45%-65.4%                 7%-26$Z0          23.3%-33.3%
 Relative Precision          18.4%                     57.6%             17.7%




                                            A -1

                       APPENDIX                 B


                       State Level Case Data




I
                          Cases                  98 Cases
            cases in        in          Cases    No Order       45 Cases
            Universe     Sample    Reviewed      Established   No Payment

Strata 1

       GA    4,068          45           32          21            6

       IL      664          45           29           1            5
Strata 2
       MA       90          45           31           2            6
       NJ      708          45           33           9            6
Strata 3
               414          45           35          20            4
       OK      127          45            40         26            3
Strata 4

       NV      178          45            33          18            6
                66          45            42           1            9
              6,315        360           275         98            45
*




                                  B-1
                             APPENDIX                           C


                         Projected Program Savings

                               (dollar amounts in millions)


                             Order Established/                No Order           Total Number of
                                 Payments                     Established/        Cases Receiving
                                Delinquent                    No Payments           No Payment

Number of Cases in
Sample                                 45                          98                    143

Number of Case
Projected Annually                    5,114                      15,222                 20,336

AFDC Program
Savings                               $15.5                      $22.2                  $37.7
Medicaid Program
Savings                               $4.1                       $12.3                  $16.4
Total                                 $19.6                      $34.5                  $54.1
—



                         Confidence     Intervals         and Precision

                               (dollar amounts in millions)


                          Order Established/                             No Order Established/
                     Payments Delinquent (45 cases)                     No Payments (98 Cases)
                                                                                  I
                                                                         AFDC     I Medicaid

Estimate                                                                  $22.2     I      $12.3
9070 Confidence                                                     $13.2-$31.2         $7.5 -$17.1
Interval             *                          ‘;l
Precision                   29%             I         23.6%               39%              39?40




                                                c-1
                           APPENDIX                 D


                            Agency Comments


We received comments on our draft report from the Administration for Children and
Families (ACF), the Assistant Secretary for Planning and Evaluation (ASPE), and the
Social Security Administration (SSA). Their responses follow.




                                        D-1

     .J~
                 .,L*.   .L.    A   .1   .   .   .   .    .   .   .   ..&.   .L.    .    .   --.....1-       L-------       ---




;
<>
      $                                                                                                                                    ADMINISTRATION     FOR CHILDREN AND FAMILIE
                                                                                                                                           370 L’Enfant Promenade, S.W.
                                                                                                                                           Washington,   D.C. 20447

           Date:               April                     1,   1993

           To:                               B                                                    ell
                                             P                                                    ty Inspector                    General

           From:                         L
                                         A                                                 nt Secretary                           for
                                                         Children                       and Families

           Subject:                      Comments                                  on OIG Draft                         Report          ‘tChild    Support       and   the
           Military”                     OEI-07-90-02250

           We agree  that there is a need to improve the processes,
           particularly location, to remove barriers that exist in the
           collection of child support payments from absent  parents in the
           military.

           The report finds that:  1) States did not collect child support
           payments in more than half of the sample of military cases; 2)
           locating absent parents is the greatest barrier to the collection
           of support payments; 3) Child Support Enforcement (CSE) staff
           have not been properly trained in handling military cases; and 4)
           military finance centers identified reasons for delaying the
           processing of wage withholding.

           The report indicates that OIG staff interviewed CSE staff and
           military personnel in each of the eight States.   However, the
           report does not mention the process for identifying and selecting
           the persons to be interviewed nor does it include the questions
           posed.  We suggest that the data collection instruments be
           incorporated as exhibits to the report.

           Comments                 on the specific                                                      OIG recommendations                      follow:

           OIG     Recommendation:

           I.a.� The ACF, Office of Child Support Enforcement should provide
                 technical support to State CSE offices to improve social
                 security number identification:

           ACF Comment:

                    We concur.

                   In September          1991,   at the First       Annual    National       Child

                   Support       Training      Workshop,    the Office      of Child        Support

                   Enforcement.         (OCSE) conducted       a track     on location         training

                   for 72 participants              (mainly   State   child     support      trainers)

                   from 28 States.             Improvement     of social      security       number      (SSN)

                   identification          was included.         Each  of   the    participants

        Page      2   -    Bryan    B.    Mitchell


        and     the       non-attending          states     were provided         with      a sample
       curriculum             for   location         training.      Our follow-up   to the
       conference              indicates      that     several     States  have conducted
       location            training      using     this    curriculum.

       OCSE staff       have conducted         on-site      location      training        (with
       SSN identification            as an integral         part     of the training)           i.n
       Arizona,      Indiana,      Michigan,      Prince      George~s      County,      and
       Philadelphia.          OCSE staff       also    presented       sessions       on
       location at State           child    support      conferences        i.n Alabama,
       California,        and Florida.         Training      workshops        on the location
       function      were also      conducted       at the two largest             national
       training      conferences:         the National         Child     Support
       Enforcement       Association’s         and the Eastern          Regional        Child
       Support     Association’s         Annual     Training       Conferences.

       In     1992,       OCSE developed             a program        review   protocol      which      was
       issued in December to all Regional Offices for use in
       conducting program reviews of the location function (and                                          SSN
       i.dentifi.cation)             with      follow-up         technical     assistance       where
       appropriate.

      OCSE has recently notified State CSE offices of their
      ability to submit through the Federal CSE office to the
      Social Security Administration (SSA) SSN8S for verification
      in SSA’S Enumeration Verification System (EVS) . There are
      two systems offered by the SSA that the States may use.   The
      first is “System 2121’ which will provide a State with
      multiple SSN’S for an individual who has been legally issued
      more than one SSN. To date, System 212 has identified
      14,000 multiple SSN’S.   The second is l~System220f’which
      will provide a corrected SSN in cases where the State has
      made a transposition or slight error in the SSN that they
      currently have for that individual. To date, System 220 has
      provided 30,000 corrected SSN8S.
OIG Recommendation:

lb.� The ACF, Office of Child Support Enforcement should evaluate
     the usefulness         of information      available    through      the Federal
     Parent     Locator     Senice     (FP123), and provide       necessary
     assistance        to local    CSE offices     searching    for military
     absent     parent    social    security    numbers.

ACF Comment:

      We concur in that we are constantly evaluating the
      usefulness of the information available through the FPLS.
      However, the usefulness of the Lcapation information is
.   .


              Page 3 - Bryan B. Mitchell


              dependent on several factors including the currency of the
              data received from other Federal agencies and how successful
              states are in following up on the information. Most Federal
              agency data bases that the FPLS accesses are updated at
              least annually.

             The FPLS receives SSN information from the Social Security
             Administration and address and employer information from the
             Internal Revenue,Senice, the National Personnel Records
             Center, the Department of Defense, the Department of
             Veterans Affairs, the Selective Senice System and the State
             Employment Security Agencies. If SSA records indicate the
             person is in the military, the FPIS will automatically send
             the case to DOD.

             On an ongoing basis, OCSE provides technical assistance to
             local child support enforcement offices in the
             identification of SSN’S, from automated matches with IRS and
             SSA, for all absent parents including those in the military.
        OIG Recommendation:

        l.c. The ACF, Office of Child Support Enforcement should continue
             to promote the “Child Support Enforcement in the Military”
             handbook.

        ACF Comment:

             We concur.

             With two inhouse printings, OCSE has distributed the ‘lChild
             Support Enforcement in the Militaryi’handbook to all State
             and local child support offices and has made copies
             available to military family senice centers, and to
             worldwide offices of the American Red Cross. This
             publication is included in OCSE’S list of available
             publications. In an effort to further promote the handbook,
             OCSE arranged in 1992 for the handbook to be marketed and
             sold by the U.S. Government Printing Office.
        OIG Recommendation:

        l.d.�The ACF, Office of Child Support Enforcement should
             establish and require the use of a standard form and a
             checklist for submission of wage withholding requests to the
             Defense Finance and Accounting Senice Centers.

        ACF Comment:

            We concur.
.


           Page 4 - Bryan B. Mitchell


          OCSE has identified a work group to develop a standardized
          form for wage withholding. The work group consists  of CSE
          staff at the Federal, Regional, State, and local level, as
          well as appropriate associations. The OCSE plans to submit
          the form to OMB for approval this fiscal year.
    OIG Recommendation:

    2.�   The ACF and the.Social Security Administration should
          collaborate to develop a better mechanism to assist CSE
          staff in obtaining social security numbers for absent
          parents.
    ACF Comment:

          we concur.


          Through     SSA, the FPLS can identify                SSN~s, addresses,   and

          employer     information.        Additionally,         as previously

          indicated,      SSN’S can be verified            through    the SSA~s

          Enumeration       Veri.ficati.on   System.





                                                                                           .-
                                       FEB12!933€


TO:�          Bryan B. Mitchell
              Principal Deputy Inspector General

FROM :�       Acting Assistant Secretary
              for Planning and Evaluation                                                      . .,

SUBJECT :� OIG Draft Report:             “Child Support and the Military,
           0EI-07-90-02250


We have reviewed the above mentioned draft report and agree that
there are additional administrative actions that OCSE and state
child support enforcement agencies can undertake to improve the
establishment and enforcement of child support in cases where the
non-custodial parent is in the military.

However, we have several concerns about the specific findings in
the report and would like to raise an additional concern about
your recommendation that ACF/OCSE and SSA develop a better
mechanism for obtaining Social Security numbers of non–custodial
parents.

First, while we agree that whenever possible, the ~litary   non-
custodial parent should provide for the health care needs of
their children and that such military-provided insurance could
potentially reduce Hedicaid costs, the report should clearly
state that obtaining such health care coverage Wo uld not lead to
9 reducti~n ~ federal health care ex~end itures . CHAMPUS, the
program designed to provide health care for military personnel
and their families, is 100 percent federally-financed and has a
broader package of coverage than some state Medicaid programs.
This would mean that the Federal Government would likely pick up
more of the cost for health care under CHAKPUS than under
Medicaid.  In the long run, health care coverage through CHAMPUS
might help some families with high health care costs, leave ATDC,
because Medicaid coverage is no longer needed.   However, in the
short-term, there is likely to be a reduction in the federal
share of Medicaid costs but an overall increase in Federal
Government costs as a result of increased provision of health
insurance and care through the military.

Second, while the report correctly indicates that several factors
beyond the’control of the CSE program make the location of some
non-custodial parents in the military virtually impossible, the
AFDC (and Medicaid) program savings                are computed       as if ~        of
these   absent    parents    could     be located.        The potential      program
savings    should    reflect    the less      than   100 percent      locate    rate    that
the report     elsewhere     indicates      is realistic.
    ,
.

        Page 2 - Bryan B. Xitchell



        Third, the report indicates that military personnel allege that
        the problems in processing wage-withholding orders are mainly the
        result of improper handling of the CSE agency. What the report
        fails to mention is that some of the problems related to wage-
        withholding stem from inconsistencies between the federal law
        permitting garnishment in the military, which was passed in 1982,
        and the general child support wage withholding statutes passed in
        1984 and 1988. The,1982 statute only permd.tsgarnishment
        (involuntary wage-withholding) after 2 months arrears and places
        other limitations on enforcement action. Under the 1988 statute,
        immediate withholding, without any accumulation of arrears, was
        mandatory in IV-D cases beginning in 1991. An example of the
        confusion which might result from these separate statutes is that
        military personnel cite as a frequently “missing” item, a
        certified copy of the arrearage support order. According to the
        1984 law, it is not necessary to go back to court for such an
        order,     and according       to the 1988 law,     it i.s not necessav        for
        there    to be an explf.cit        request    for wage-withholding      in the
        initial     support    order.      It may be impossible        to clear   up the
        confusion      between    military     personnel   and CSE staff until the 1982
        law is amended and/or military regulations are brought into
        conformance with subsequent legislation.

        Lastly, the report recommends that ACF and SSA develop a better
        mechanism for”obtaining Social Security numbers for absent
        parents.   While we support any collaboration which could make the
        system work better, we would like to point out that safeguards
        have to remain in place in order to protect individual privacy
        and the integrity of the Social Security system.   Unknown SSNS
        can be provided only when the CSE agency, based on information
        from the, custodial parent, can furnish several other pieces of
        information which are kept as part of the Social Security
        records. These include some combination of: the non-custodial
        father’s legal name, his date of birth, his place-of birth, and
        the names of his mther and father. If the custodial parent does
        not know any of these items, release of a SSN or a number of
        possible SSNS, based solely on a name match, would be irresponsi­
        ble.  Attempts to locate absent parents need to be balanced
        against the reasonable protection of the privacy of individuals
        within the Social Security system.  “

        If you have any questions, please         feel    free   to   call   Ann Segal,
        Acting   Deputy   Assistant   Secretary   for    Human Services Policy
        (690-7148).




                                                                                 ..- ...
            ‘r{
     _>           L
‘+>+X.,,,, +a
                      Refer to
                                                                         Memorandum
          Date:
                      ‘ .:=fzi!P/
          From:                 .
                        Acting   Commissioner   of ~ocial Security

          Subject:      Office of Inspector General Draft Report, ‘t
                                                                   Child Support and
                        the Military” (OEI-07-90-02250)--INFO~TION

          To:          Bryan B. Mitchell�
                       Principal Deputy Inspector General�


                       Attached is our response to the subject report.   If we can be�
                       of further assistance, please let us know.�

                       Attachment:�
                       SSA Response�




                                 .
 COMMENTS OF THE SOCIAL SECURITY ADMINISTRA TION ON THE OFFICE OF�
 INSPECTOR GENERAL DRAFT REPORT, “CHILD SUPPORT AND THE MILITARY”�
 (OEI-07-90-02250)�


Office   of Inspector   General   (OIG) Recommendation�

The Administration  for Children and Families (ACF) and the Social�
Security Administration  (SSA) should collaborate to develop a�
better mechanism to assist the Office of Child Support�
Enforcement (OCSE) staff in obtaining Social Security�
numbers (SSN) for absent parents.�

SSA Response�

We agree and are currently working with OCSE to develop a better�
mechanism to obtain SSNS for absent parents.   The Federal Parent�
Locator Service (FPLS) within OCSE is conducting a study to see�
if a different SSA system could provide SSNS to them.   The Alpha�
Search routines of the Enumeration Verification System may be a�
better mechanism for locating SSNS for these cases, since they�
would not require as many data elements as the FPLS system.�

On January 6, 1993, representatives from SSA met with OCSE to�
explore ways to better serve OCSE in obtaining SSNS for absent�
parents.  A number of options for enhancing this process through�
data exchange and other methods will be shared with OCSE in the�
near future.�

Other Matters�

There appears to be a problem on page 3 of the report with OIG’S�
estimate that 51 percent of the 360 cases reviewed showed no�
child support payments being made.   Either an error was made in�
the calculation or States that have a large number of child�
support cases in which a branch of military senice   was listed as�
the absent parent’s place of employment have a higher percentage�
of cases where no child support is being collected than do the�
small enrollment States.  The pie chart on page 3 shows that�
143 of 275 sample cases represented a weighted percentage of�
51 percent and 132 of 275 represented a weiqhted ~ercentaae of
21 percent. If this is so, It would be ben;ficia~ to she; State
level data for the eight States or, alternatively, quartile data,
so that the reader of the report would be aware of this disparity
in results for large enrollment States as compared to small
enrollment States.

Additionally, on page A-1 of the appendix, the relative precision
number under the Unable to Locate column for absent parent should
be 12.8 percent rather than 45.5 percent.  Also, the confidence
intervals for whether or not a support order was established seem
to be wider than one would expect.
